              OFFICE OF
             INSPECTOR GENERAL
             U.S.DEPARTMENT OF THE INTERIOR


                                                                                          May 31 , 2013

Memorandum

To:           Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Management

From:         Michael P. Colombo / ' / ;_,        %.0{?C                4(}o
              Western Regional ~~t~, Inspections, and Evaluations

Subject:      Verification Review ofRecommendations for the Inspection Report, " Museum
              Collections: Preservation and Protection Issues with Collections Maintained by
              the Bureau oflndian Affairs" (C-IS-BIA-0004-2010, January 2010)
              Report No. WR-VS-BIA-0010-2013

        The U.S. Department of the Interior (DOl) Office of Inspector General (010) has
completed a verification review ofthe two recommendations presented in the subject inspection
report. Our objective was to determine whether the Bureau of Indian Affairs (BIA) implemented
the recommendations as reported to the Office of Financial Management (PFM), Office of
Policy, Management and Budget. PFM reported to OIG when BIA had addressed and provided
supporting information for the two recommendations in the subject report. As a result, the
inspection report closed May 18, 2011. Based on our verification, we consider Recommendation
1 resolved and implemented and Recommendation 2 resolved but not implemented.

Background

        Our January 2010 inspection report, "Museum Collections: Preservation and Protection
Issues with Collections Maintained by the Bureau of Indian Affairs," contained two
recommendations relating to correcting and/or mitigating, to the greatest extent possible, all
identified deficiencies at the seven BIA regional offices and inspecting all remaining BIA
repository sites that house museum collections.

        On March 15, 2010, OIG referred the recommendations to PFM for tracking and
implementation. In a memorandum dated March 19, 2010, BIA concurred with OIG's
recommendations in the report. On May 13, 2011 , BlA requested that PFM close the two
recommendations based on actions they had taken to date and its plans for fully implementing
both recommendations. Subsequently, PFM reported in a memorandum dated May 18, 2011 , that
BIA met the intent of the recommendations and is correcting and/or mitigating, to the greatest
extent possible, the deficiencies identified in the report. PFM considered both recommendations
to be implemented and closed the report.




                        Office of Audits, Inspections, and Evaluations I Sacramento, CA
Scope and Methodology

      The scope of this review was limited to determining whether BIA took action to
implement our recommendations. To accomplish our objective, we reviewed the supporting
documentation that BIA officials provided and discussed actions taken relating to the two
recommendations.

        We did not perform any site visits or conduct fieldwork to determine whether BIA had
corrected the underlying deficiencies that we initially identified. As a result, this review was not
conducted in accordance with the Generally Accepted Government Auditing Standards issued by
the Comptroller General of the United States or the Quality Standards for Inspections of the
Council of the Inspectors General on Integrity and Efficiency.

Results of Review

       Our current review found that BIA implemented Recommendation 1 but did not
implement Recommendation 2. We are requesting that PFM reinstate Recommendation 2 and
take appropriate follow-up actions.

       Recommendation 1: Correct and/or mitigate, to the greatest extent possible~ all
       identified deficiencies at the seven sites identified in this report.

        BIA appears to be correcting and/or mitigating, to the greatest extent possible, all of the
identified deficiencies at the seven sites identified in this report.

        According to BIA's Museum Program Manager, BIA developed a Corrective Action Plan
(CAP) which lists all of the deficiencies noted by the OIG at each of the seven sites visited. The
CAP identifies the deficiencies that have been addressed and describes the work BIA is doing to
correct and/or mitigate the remaining deficiencies.

        In addition, BIA' s Museum Program Manager told us that BIA staff has been directed to
follow three new DOT directives created specifically for the management of museum collections
and repositories. Directive 3, " Required Standards for Documenting Museum Property,"
establishes policy on maintaining documentation accessioning, cataloging, inventories, and
loans. The policy covers documentation in both paper format and in the Interior Collection
Management System (ICMS) database. Directive 4, " Required Standards for Managing and
Preserving Museum Property," requires that BIA staff assess the environmental controls, security
and fire protection, and appropriate display of museum objects. Directive 18, "Interior Collection
Management System," implements the use of the ICMS as the database for managing the
specific collection management activities of all museum collection repositories.

        We concluded that BIA is correcting and/or mitigating, to the greatest extent possible, the
identified deficiencies at the seven sites identified in our report. We therefore consider this
recommendation to be implemented.




                                                  2
       Recommendation 2: Inspect all remaining B[A sites that house museum collections and
       correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        ln BIA' s memo to PFM dated May 13, 2011 , it stated that it had completed site visits to
24 out of 108 BIA repositories holding museum collections to verify condition assessments. As
of March 2013, BIA' s Museum Program Manager told us that the number of repositories has
since been reduced to 95 and that BIA has inspected 48 of the 95 repositories. While BIA has
made progress in this regard, BIA museum program staff has not yet inspected all of the
remaining BIA sites that house museum collections. We therefore concluded that this
recommendation has not been implemented.

Conclusion

        We informed BIA officials of the results of this review at an exit conference on May 23,
2013. BIA officials agreed with the results of our review. We request that PFM reinstate
Recommendation 2 as not implemented from the subject inspection report and inform us of the
actions to be taken for this recommendation.

       If you have any questions about this report, please contact me at 916-978-5653.

cc:    MichaelS. Black, Director, Bureau oflndian Affairs
       Andrea Nygren, DOI/GAO Liaison, Office of Financial Management
       Michael Oliva, Director, Office of Internal Evaluation and Assessment, Indian Affairs
       Patricia Vendzules, Audit Liaison Coordinator, Bureau of Indian Affairs




                                                 3
